fT

OCKLE

2311 Douglas Street No Legal Bri E-Mail Address:
Omaha, Nebraska 68102-1214 8 E Ae f s contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-875
OTO, L.L.C.,
Petitioner,

ve
KEN KHO ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that 1 did, on the 13th day of February, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF THE CALIFORNIA NEW CAR DEALERS
ASSOCIATION, CALIFORNIA EMPLOYMENT LAW COUNCIL, AND ASSOCIATION OF SOUTHERN CALIFORNIA
DEFENSE COUNSEL AS AMICI CURIAE IN SUPPORT OF PETITIONER in the above entitled case. Ail parties required
to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:

BENJAMIN G. SHATZ ANNA-ROSE MATHIESON
MANATT, PHELPS Counsel of Record

& PHILLIPS, LLP CHARLES KAGAY
11355 W. Olympic Blvd CALIFORNIA APPELLATE
Los Angeles, CA 90064 LAW GROUP LLP
(310) 312-4383 96 Jessie Street
bshatz@manatt.com San Francisco, CA 94105

(415) 649-6700

Attorneys for Amicus annarose@calapplaw.com

ASCDC
Attorneys for Amicus

CNCDA

Subscribed and sworn to before me this 13th day of February, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

‘
Generai Notary
State of Nebraska - 0 Elite Quduaw- Ke Chk

My Commission Expires Nov 24, 2020

 

Notary Public Affiant 39360
SERVICE LIST

Counsel for Petitioner

Kannon K. Shanmugam
(kshanmugam@paulweiss.com)

Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, N.W.

Washington, DC 20006

(202) 223-7300

Counsel for Respondents

David A. Rosenfeld
(drosenfeld@unioncounsel.net)
Weinberg, Roger & Rosenfeld
1001 Marina Village Parkway
Suite 200

Alameda, CA 94501

(510) 337-1001

Miles EK. Locker

(mlocker@dir.ca.gov)

California Department of Industrial Relations
Division of Labor Standards Enforcement

455 Golden Gate Avenue, 9th Floor

San Francisco, CA 94102

(415) 703-4863
